   May 23, 2002




Information
System Security
Government Information Security
Reform Act Implementation:
Noncombatant Evacuation
Operations Tracking System
(D-2002-093)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General
  of the Department of Defense Home Page at www.dodig.osd.mil/audit/reports
  or contact the Secondary Reports Distribution Unit of the Audit Followup
  and Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or
  fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup
  and Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
ASD(C3I)              Assistant Secretary of Defense (Command, Control,
                        Communications, and Intelligence)
DITSCAP               DoD Information Technology Security Certification and
                        Accreditation Process
DMDC                  Defense Manpower Data Center
GISR                  Government Information Security Reform
NTS                   Noncombatant Evacuation Operations Tracking System
SSAA                  System Security Authorization Agreement
        Office of the Inspector General of the Department of Defense
Report No. D-2002-093                                                    May 23, 2002
  (Project No. D2002LD-0069)

    Government Information Security Reform Act Implementation:
       Noncombatant Evacuation Operations Tracking System

                               Executive Summary

Introduction. Public Law 106-398, “Government Information Security Reform,”
title X, subtitle G of the Floyd D. Spence National Defense Authorization Act for
FY 2001, October 30, 2000, requires that each agency obtain an independent
assessment of its security posture. The Inspector General of each agency is required to
evaluate the agency’s security posture based on a review of an independently selected
subset of information systems.

The DoD uses information technology for thousands of processes that are integral to
support and operational functions. Mission-critical, mission-essential, and
support-function processes, or applications, reside on computer systems throughout DoD.

DoD selected a sample of 560 automated information systems from the almost
4,000 automated information systems in DoD. For those 560 systems, DoD developed a
Government Information Security Reform Act collection matrix that was used to gather
data on assessments of the effectiveness of DoD information assurance policies,
procedures, and practices. DoD reported the aggregate results of the assessments for
FY 2001 in “GISR Report FY01: Government Information Security Reform Act,
Report of the Department of Defense,” October 2001. Of the 560 systems, the Office of
the Inspector General of the Department of Defense; the Defense Information Systems
Agency Inspector General; and Military Department Audit Agencies assessed a sample
of 115 systems. This report is one in a series of Government Information Security
Reform Act audits and is an assessment of the Noncombatant Evacuation Operations
Tracking System.

Results. In our assessment of the Noncombatant Evacuation Operations Tracking
System, the Defense Manpower Data Center implementation of the Government
Information Security Reform Act requirements, as reported in the Government
Information Security Reform Act collection matrix for FY 2001, was generally accurate
as of August 1, 2001, the date of the FY 2001 collection matrix data. Although 6 of
the 32 responses provided in the collection matrix were technically inaccurate because
the supporting documents were in draft form, we concluded that the Defense Manpower
Data Center was making progress toward achieving full information security
accreditation for the Noncombatant Evacuation Operations Tracking System by
August 2002, the target date for completion of the FY 2002 collection matrix. For
details on the audit results, see the Finding section.

Management Comments. We provided a draft of this report on May 3, 2002.
Because this report contained no recommendations, written comments were not
required, and none was received. Therefore, we are publishing this report in final
form.
Table of Contents

Executive Summary                                                       i

Introduction
     Background                                                        1
     Objectives                                                        3

Finding
     Noncombatant Evacuation Operations Tracking System
       Information Security                                            4

Appendixes
     A. Audit Process
         Scope                                                         13
         Methodology                                                   13
         Prior Coverage                                                14
     B. Government Information Security Reform Act Collection Matrix
          Submission                                                   15
     C. Report Distribution                                            22
Background
    Government Information Security Reform. On October 30, 2000, the
    President signed the Floyd D. Spence National Defense Authorization Act for
    FY 2001 (Public Law 106-398), which includes title X, subtitle G, the
    “Government Information Security Reform” (GISR) Act. Subtitle G directs that
    the Government ensure effective controls for highly networked Federal
    information resources; management and oversight of information security risks;
    and a mechanism for reporting improved information system security oversight
    and assurance for Federal information security programs. The GISR Act directs
    each Federal agency (DoD for purposes of this report) to annually evaluate its
    information security program and practices and, as part of the budget process,
    submit the results of the evaluation to the Office of Management and Budget.
    The GISR Act covers both unclassified and national information security
    systems and creates a comparable security management framework for each.
    The GISR Act also requires that the agency Inspector General or other
    independent agent evaluate the agency information security program and
    practices. Also, the GISR Act requires each agency Inspector General or other
    independent agency to select and test a subset of systems that will confirm the
    effectiveness of the information security programs.

    DoD Responsibilities. The GISR Act directs DoD to annually evaluate its
    information security program and practices. The DoD uses information
    technology for thousands of processes that are integral to support and
    operational functions. Mission-critical, mission-essential, and support-function
    processes, or applications, reside on computer systems throughout DoD.
    Applications for the DoD Components include financial accounting; personnel;
    pay and disbursement; materiel shipping, receiving, and storing; munitions
    maintenance; and weapon systems-associated applications.

    The GISR Act directs that DoD as part of the budget process submit the results
    of their annual evaluation to the Office of Management and Budget. Office of
    Management and Budget guidance, memorandum 01-24, “Reporting on the
    Government Information Security Reform Act,” June 22, 2001, directs the
    Secretary of Defense to transmit the FY 2001 annual evaluation of information
    security program and practices to the Office of Management and Budget by
    October 1, 2001. The Assistant Secretary of Defense (Command, Control,
    Communications, and Intelligence) [ASD(C3I)] formed and chaired an Integrated
    Process Team to develop and finalize the guidance and methodology for DoD
    reporting of the GISR Act. The Integrated Process Team developed a 32-column
    spreadsheet--GISR Act collection matrix--to gather data on assessments of the
    effectiveness of DoD information assurance policies, procedures, and practices.
    DoD required the FY 2001 GISR Act collection matrix data completion as of
    August 1, 2001.

    Inspector General Responsibilities. Office of Management and Budget issued
    memorandum 01-08, “Guidance on Implementing the Government Information
    Security Reform Act,” in January 2001 to provide implementation instructions
    for Federal agencies in carrying out the GISR Act. Guidance specific to the
    duties of each Inspector General as an independent evaluator was also included
    in that memorandum. The Office of Management and Budget guidance states

                                        1
            that each Inspector General or independent evaluator “should perform an annual
            evaluation of the agency’s security program and practices. This testing includes
            testing the effectiveness of security controls for an appropriate subset of agency
            systems.” Although the GISR Act applies to all Government information
            systems, Office of Management and Budget acknowledged that agencies could
            not review all of those systems every year. As a result, the independent
            evaluation should identify and assess a logical representative sampling of
            systems that can be used to form the basis of a conclusion regarding the
            effectiveness of an agency’s overall security program.

            DoD Systems. The Office of the Inspector General of the Department of
            Defense developed a stratified random sample from the population of
            automated information systems the DoD evaluated and reported for FY 2001 in
            the “GISR Report FY01: Government Information Security Reform Act,
            Report of the Department of Defense,” October 2001 (DoD GISR Act Report).
            DoD selected and reported in the DoD GISR Act Report on a sample of
            560 automated information systems from the almost 4,000 systems listed in the
            DoD Information Technology Registry.1 The Office of the Inspector General
            of the Department of Defense stratified random sample included 115 systems
            from the universe of 560 systems that were reported on in the DoD GISR Act
            Report. The audit agencies for the Military Departments and the Defense
            Information Systems Agency, Inspector General will evaluate 91 of the
            information systems included in the sample 115 by August 2, 2002. The Office
            of the Inspector General of the Department of Defense will evaluate the
            remaining 24 systems that support DoD agencies and activities. This report
            discusses the evaluation of 1 of the 24 DoD-level systems, the Noncombatant
            Evacuation Operations Tracking System (NTS).

            DoD Information Security Program. DoD Instruction 5200.40, “DoD
            Information Technology Security Certification and Accreditation Process,
            (DITSCAP),” December 30, 1997, provides the procedures for certification and
            accreditation of information technology to include information systems,
            networks, and sites in DoD. It also assigns responsibilities for oversight and
            implementation of the certification and accreditation process. DITSCAP is to be
            used as guidance throughout the certification and accreditation process. DoD
            Manual 8510.1-M, “Department of Defense Information Technology Security
            Certification and Accreditation Process (DITSCAP) Application Manual,”
            July 2000, provides implementation guidance that standardizes the certification
            and accreditation process throughout DoD.



1
    The Information Technology Registry was established in response to requirements contained in
    section 8102(a) of the National Defense Appropriation Act for FY 2001 and section 811(a) of the
    National Defense Authorization Act for FY 2001. The DoD registry must contain all of the fielded
    mission critical and mission essential systems as well as all the mission critical and mission essential
    systems that are in development.




                                                         2
Objectives
     Our overall audit objective was to assess NTS for implementation of the GISR
     requirements of the Floyd D. Spence National Defense Authorization Act for
     FY 2001. See Appendix A for a discussion of the audit scope and methodology.




                                       3
                    Noncombatant Evacuation Operations
                    Tracking System Information Security
                    Data reported for NTS in support of the implementation of the GISR Act
                    requirements for FY 2001 were generally accurate as of August 1, 2001.
                    Of the 32 responses provided on the matrix, 6 were technically inaccurate
                    because the supporting documents were in draft form. However, the
                    Defense Manpower Data Center (DMDC)2 was following DITSCAP to
                    certify and accredit NTS. As a result, DMDC is making progress in
                    achieving full information security accreditation for NTS by August 2002.

System Background
            NTS is a mission essential3 system developed to support noncombatant evacuation
            operations. Noncombatant evacuation operations are conducted during times of
            endangerment or as part of a military exercise to evacuate civilian noncombatants
            and nonessential military personnel from foreign or host nations. The purpose of
            the NTS is to provide individual accountability for noncombatant evacuees by
            creating and maintaining an automated database of evacuees assembled during an
            evacuation operation. NTS was initially developed in October 1998 for
            U.S. Forces Korea. Since that time, NTS has been deployed to the European
            (June 2000) and Pacific (February 2001) theaters of military operations.

            Hardware Configuration. NTS is a set of commercial-off-the-shelf laptop
            computer workstations, scanners, miniservers, and main database server.
            Under normal operation, NTS is a stand-alone system (not required to be
            connected to a computer network to operate) that is not employed until
            evacuations or military exercises are conducted. When NTS is employed, the
            system is activated and a database is created.

            System Operations. During an evacuation, evacuees report to an evacuation
            control center where information about the individual is gathered and entered in
            the system at an NTS registration workstation. The registration workstation
            (laptop computer) is capable of reading and processing a variety of scanned
            identification documents, including passports and DoD identification cards.
            Each individual is assigned a unique NTS tracking number that is linked to the
            individual’s identification document. The tracking number is located on an
            identification bracelet similar to those hospitals use and must be worn by the
            evacuees. The data from the laptops used in the registration are saved to an
            evacuation control center miniserver by way of a wireless modem. Registered
            evacuees may include service members, DoD and non-DoD civilian employees;
            U.S. residents abroad, foreign nationals, corporate employees; and any
            dependents and pets.

2
    DMDC is the program office for NTS and is responsible for the continued development and maintenance
    of the system. DMDC is a component of the DoD Human Resource Activity.
3
    Mission essential systems are those systems that are basic and necessary for the accomplishment of an
    organization’s mission.

                                                       4
    Registration data from the miniservers are stored on a database server at the
    theater command level. The evacuation database server is a fully dedicated
    server that is not used for other automated systems. The evacuation database is
    saved to a DMDC server located at DMDC-West, Monterey, California,
    through a data extraction that DMDC initiates. DMDC can then post the
    evacuation database on the Web to provide access to Pentagon decisionmakers
    and planners. The status of an evacuee at each stage of the evacuation process
    is updated through scanning of the identification bracelet and can be provided on
    an official use only basis through a secure Web site. Access to the Web site
    must be cleared through DMDC.

Data Collection Matrix
    DMDC through the DoD Human Resource Activity provided the response for
    the NTS to ASD(C3I) as of August 1, 2001, and the data reported were
    generally accurate. In response to the GISR Act requirement for each Federal
    agency to annually evaluate and report on its information security program and
    practices, ASD(C3I) developed a GISR Act data collection matrix (the matrix)
    for DoD. The Assistant Secretary developed the matrix as a management tool
    to track information assurance trends and outcomes. The matrix consisted of a
    spreadsheet divided into four sections for data. Section titles included
    identifying information, accreditation information, assessment criteria
    information, and operations and assessment interest items.

    In response to the information in the matrix, DMDC was generally required to
    answer yes, no, or provide a date for action completed. With the exception of a
    special section that could be used for augmenting comments, no other
    explanation was required or expected. A discussion of each section of the
    matrix and the data that DMDC reported in the matrix for NTS follow, along
    with our analyses of the reported data for DMDC. Appendix B contains the
    information for NTS that was reported in the matrix that ASD(C3I) used for the
    DoD GISR Act Report.

    Identifying Information. DMDC was requested to provide the system/network
    name, acronym, component owner, and information technology classification
    (mission critical or mission essential) in the identifying information section of
    the matrix. DMDC responded in the matrix that NTS was under the component
    ownership of the DoD Human Resource Activity and was classified as a mission
    essential information technology system. We verified that the identification
    information in the matrix was essentially correct as stated in the DoD
    Information Technology Registry.

    Accreditation Information. DMDC was requested to provide the date of
    accreditation certification, date of interim certification, the accreditation
    method, and documentation for certification and accreditation in the
    accreditation information section of the matrix.




                                         5
        Accreditation Date. DMDC was requested to provide the date that an
accreditation process accredited NTS. DoD Directive 5200.28, “Security
Requirements for Automated Information Systems (AISs),” March 21, 1988,
establishes the minimum security requirements for DoD automated information
systems. DITSCAP implements the Directive, assigns responsibility, and
prescribes procedures for certification and accreditation. DMDC responded in
the matrix by leaving the field blank. We verified that the lack of a DMDC
response was appropriate. DMDC did not place a date in the field because NTS
was in the process of applying DITSCAP requirements.

        Interim Certification Date. DMDC was requested to provide the date
that an interim authority to operate was granted. According to the provisions of
DITSCAP, interim authority should be based on the establishment of an
acceptable level of risk in operating the system. DMDC responded in the matrix
that an interim authority to operate was granted to NTS on July 27, 2001. We
verified that an interim authority to operate for 1 year was granted by the NTS
Designated Approving Authority, the Director of DMDC, and that DMDC
planned to complete the NTS certification and accreditation process prior to the
expiration of the interim authority to operate.

        Accreditation Method. DMDC was requested to identify if NTS was
accredited under DITSCAP. Several policies govern actions of program
officials, but DITSCAP is the principal governing document for risk assessment
and mitigation of DoD information technology systems. DITSCAP establishes
the oversight mechanism that ensures identification of appropriate information to
certify, accredit, and maintain a program’s security. DMDC responded in the
matrix that they were using DITSCAP to certify and accredit the NTS. We
verified that the NTS was following DITSCAP procedures, but DMDC should
have responded “no” to the question because as of August 1, 2001, NTS was
not accredited.

        Certification and Accreditation Documentation. DMDC was
requested to identify if formal documentation existed that the Inspector General
of the Department of Defense or other entities could use to verify accreditation.
DITSCAP requires a System Security Authorization Agreement (SSAA) for
each information technology system. The SSAA is a formal and binding
document among the system program manager, the Designated Approving
Authority, the Certifying Authority, and the user representative that establishes
the level of security required. The SSAA guides the process and documents the
results for certification and accreditation as well as implementation of
information technology security requirements. DMDC responded in the matrix
that they had formal documentation in effect for the NTS certification and
accreditation process. We confirmed that DMDC documented the NTS
certification and accreditation process with a draft SSAA. However, as of
August 1, 2001, the SSAA was in draft form and not a formal (signed)
document. Therefore, DMDC should have answered “no” in response to
having formal certification and accreditation documentation. DMDC planned to
finalize the SSAA by August 2002, when the NTS is accredited.




                                    6
Assessment Criteria Information. DMDC was requested to confirm that
information assurance controls and plans in the assessment criteria information
section of the matrix existed. According to the instructions provided for the
matrix, ASD(C3I) developed the assessment criteria information section to assess
selected systems on the basic program management, controls, and procedures
that exist as part of the operation of the system.

        Access Controls. DMDC was requested to identify if access controls
were in place. ASD(C3I) defined access controls as controls that limited access of
information system resources to authorized users, programs, processes, or other
systems. DMDC responded in the matrix that access controls were in place. We
verified that DMDC had access controls in place. Those access controls that NTS
used included: users were required to identify themselves during system login
through the use of a protected mechanism (such as passwords) to authenticate user
identity and user accounts; and access to the authentication security accounts
database and logon programs were denied to the NTS user.

        Risk Assessment and Management Plan. DMDC was requested to
identify if a risk assessment and management plan was completed. ASD(C3I)
defined risk as the possibility of something adverse happening; risk assessment
as the process of analyzing threats and vulnerabilities of an information system,
and the potential impact of lost information; and risk management as the process
of assessing risk, taking steps to reduce risk to an acceptable level, and
maintaining that level of risk. DMDC responded in the matrix that a risk
assessment and management plan was not completed. We verified that when
DMDC submitted the matrix data as of August 1, 2001, they had not developed
an NTS risk assessment and management plan. However, since that time,
DMDC developed a draft NTS risk assessment and management plan. DMDC
planned to finalize the risk assessment and management plan by August 2002.

        System Life-Cycle Plan. DMDC was requested to identify if a system
life-cycle plan existed. System life-cycle plan guidance that ASD(C3I) provided
with the matrix was that many models for the system life cycle exist but most
contain five basic phases: initiation, development and acquisition, implementation,
operation, and disposal. DMDC responded in the matrix that NTS had a system
life-cycle plan. We confirmed that as of August 1, 2001, DMDC had a draft NTS
life-cycle plan. Because the plan was a draft document that would not be finalized
until the NTS is accredited, DMDC should have answered “no.” During our
review, NTS was in the implementation phase of DITSCAP compliance and was
undergoing continuing development and upgrades. According to the draft
life-cycle plan, short term (within 5 years) hardware upgrades were based upon
whether the commercial-off-the-shelf equipment such as computers, passport
readers, printers, and scanners met the system use criteria and were less expensive,
smaller, and more structurally sound and rugged. Application software was to be
updated annually, or as required, based on feedback from system users.

        System Security Plan. DMDC was requested to identify if a system
security plan was in place. ASD(C3I) defined a system security plan as an
overview of the security requirements of a system, a description of the controls
in place or the controls planned for meeting those requirements, and delineation
of responsibilities and expected behavior of the individuals who access the
system. DMDC responded in the matrix that NTS had a system security plan.

                                    7
We verified that DMDC had a draft system security plan for NTS as of
August 1, 2001. DMDC should have responded “no” because the plan was a
draft document that would not be finalized until NTS is accredited. The NTS
draft system security plan was titled, “NTS Security Standard Operating
Procedures Plan.” The draft plan identified the security measures that must be
enforced to operate the NTS so it can securely process sensitive unclassified
information. In addition, the draft plan provided guidelines to assist personnel
responsible for NTS security in directing the safeguarding of sensitive
unclassified information contained in NTS equipment from unauthorized access
and use, alteration, destruction, and denial of service. The draft plan also
described the responsibilities of information system security personnel
responsible for NTS, defined the requirements to maintain compliance with the
accreditation, including periodic security reviews, risk management, a
continuity of operations plan, required actions in the event of compromise,
initial and periodic security training programs, and reaccreditation. Further, the
draft plan prescribed detailed procedures the NTS site managers, administrators,
and users were required to carry out that will ensure secure operation of the
NTS. The security guideline procedures applied to all NTS operating sites.

        Personnel Security Measures. DMDC was requested to identify if
proper personnel security measures were in place. ASD(C3I) defined personnel
security measures as a broad range of security issues related to how human
users, designers, implementers, and managers of software and hardware interact
with computers, and the access and authorities needed to do their jobs. DMDC
responded in the matrix that NTS had personnel security measures in place. We
confirmed that personnel security measures were in place for NTS. NTS
registrars’ (operator and user) access and authority were limited to individuals
required to perform and manage noncombatant evacuation operations. The
noncombatant evacuation operation system administrators and evacuation control
centers’ officer in charge were responsible for authorizing operators and users.
NTS users and operators had authorized access to only the information required
to perform assigned tasks. The concept of “need to know” was primarily
implemented in NTS systems through the use of password protection and
physical access procedures. The NTS program officer at DMDC was
responsible for controlling access to the NTS Web site.
        Physical Security Controls. DMDC was requested to identify if
physical security controls were in place. ASD(C3I) defined physical security
and environment security as the measures taken to protect systems, buildings,
and related supporting infrastructures against threats associated with their
physical environment. DMDC responded in the matrix that NTS had physical
security controls in place. We verified that physical security controls were in
place at DMDC-West. Although the NTS plan for physical security includes
physical security procedures for operational units that use the system, as a
practical matter we did not verify the controls of the operational units in Korea,
Japan, and Europe. Physical security controls for NTS included: equipment
must be physically secure at all times, system components must be locked and
secured when not in use, and when in use, access to the systems was limited to
authorized users only. Additionally, the NTS was to be operated in facilities
and areas that maintained physical security measures that comply with applicable
Federal, Service-level, and local security policies.


                                    8
       Administrative Controls. DMDC was requested to identify if
administrative controls were in place. ASD(C3I) did not define administrative
controls but suggested that administrative controls included the presence of a
help desk and audit trail. Administrative controls are designed to promote
operational efficiency and adherence to system policies and procedures.
DMDC responded in the matrix that NTS had administrative controls in place.
We verified the DMDC response. According to the NTS draft SSAA, user
administrators (site designated approving authority, the site security officer, and
Component-level system administrator) were responsible for ensuring that
Federal, DoD, and local computer security-related standards were enforced.
Even though no specific NTS system level administrative requirements were
required, DMDC did staff an NTS help desk during noncombatant evacuation
operation exercises.

        Contingency Plans. DMDC was requested to identify if contingency
plans were in place, and if so, when the last time was that a contingency drill,
data loss, or power loss drill occurred. ASD(C3I) defined contingency planning
as involving more than simply planning for a move offsite after a disaster
destroys a facility. Contingency planning was to also include how to keep an
organization’s critical functions operational in the event of disruptions, both large
and small. DoD Directive 5200.28 requires periodic testing of contingency plans
for mission critical systems and encourages contingency plans for all systems.
DMDC responded in the matrix that NTS had contingency plans in place, but left
the date the contingency plans were last exercised blank. We verified that NTS
had draft contingency plans, but that DMDC had not fully tested the draft plans.
DMDC should have responded “no” because the plans were draft documents that
would not be finalized until NTS is accredited. The NTS draft contingency plans
address three system-specific contingencies most likely to occur: power outages,
communications failures (land line and satellite), and hardware and software
failures. Additionally, the draft plans include three site-specific contingencies:
natural disasters (for example, fire, flood, and earthquake), civil disorders, and
bomb threats.

One draft plan includes a contingency for the primary server for the U.S. Forces
Korea theater becoming inoperable. If that event were to occur, data would then
go to the backup server in the southern part of the Korean Peninsula. If the server
also becomes inoperable, a server at DMDC-West could be employed as the
primary NTS server. All the servers were to be protected by uninterruptible
power supplies. Another of the contingencies addressed the loss of power in an
evacuation control center and no local backup source available. If that were to
happen, the users processing noncombatants would revert to a manual process to
complete noncombatant evacuation operations. As reported by DMDC, the draft
contingency plan had not been tested. However, DMDC had executed parts of the
draft plan, such as use of satellite communications and the use of the DMDC-West
server as the primary server. Manual processing to complete noncombatant
evacuation operations and site-specific contingencies were not practiced.

        Hardware and System Software Maintenance Plans. DMDC was
requested to identify if hardware and software maintenance plans were in place.
ASD(C3I) defined hardware and software maintenance plans as controls used for
monitoring the installation of, and update to, hardware and software to ensure
that the system functions as expected and that a historical record of changes are

                                     9
maintained. DMDC responded in the matrix that NTS had hardware and system
software maintenance plans in place. We confirmed that NTS had a draft
hardware and system software maintenance plan. DMDC should have
responded “no” because as of August 1, 2001, the plan was a draft document
that would not be finalized until NTS is accredited. The NTS draft maintenance
plan required that hardware be maintained and tested prior to training exercises
and noncombatant evacuation operations. Hardware testing was to be
performed quarterly. Commercial-off-the-shelf equipment warranties provided
hardware maintenance for the system as required.

The draft maintenance plan called for NTS application software to be updated
annually, or as required based on user feedback. DMDC collected feedback
from the users and provided periodic software updates based on requested
system characteristics or if flaws were discovered through usage.

        Data Integrity Process. DMDC was requested to identify if data
integrity processes were in place. ASD(C3I) defined data integrity process as
controls used to protect data from accidental or malicious alteration or
destruction and used to provide assurance for users that the information met
expectations about its quality and integrity. DMDC responded in the matrix that
NTS had data integrity processes in place. We verified that NTS had a data
integrity process. NTS used a “layered protection” concept that included
multilevel password protection of NTS software that minimized unauthorized
access of the operating system and information, and encryption that guaranteed
integrity and confidentiality. The concept was facilitated in NTS through the
use of software controls and the physical, personnel, and procedural measures.

        Security Incident Response Plan. DMDC was requested to identify if a
security incident response plan was in place. ASD(C3I) defined a security
incident response plan as a formal description and evaluation of risks to an
information system, and a process that identified and applied countermeasures
commensurate with the value of the assets protected based on a risk assessment.
An incident response plan should have help capability when an adverse event in
a computer system or network causes a failure of a security mechanism or when
an attempted breach of those mechanisms occurs. DMDC responded in the
matrix that NTS did not have a security incident response plan in place. We
confirmed the response. As of August 1, 2001, DMDC had not developed a
plan. However, since that time, a draft security incident response plan was
developed. The draft plan provided general guidelines for the systematic
response to unauthorized system intrusions associated with NTS. Additionally,
the draft plan established rules and practices that facilitated an orderly and
controlled evaluation and clean-up of any unauthorized intrusion associated with
the NTS application.

Operations and Assessment Interest Items. DMDC was requested to identify
specific operational assessment mechanisms as well as provide general comments
to augment reporting efforts on the basic program management, controls, and
procedures that existed as part of the operation of the system in the operations
and assessment interest items section of the matrix. ASD(C3I) did not provide
definitions for reporting elements contained in the section. Information contained
in the operations and assessment interest items section of the matrix included
network protections, vulnerabilities, assessments, and system interfaces.

                                   10
      Network Protections. ASD(C3I) requested data from DMDC on the
network security functions of intrusion detection systems and firewalls.

           •   Intrusion Detection System. DMDC was requested to identify if
               an intrusion detection system protected the NTS was present. An
               intrusion detection system inspects all inbound and outbound
               network activity and identifies suspicious patterns that may
               indicate a network or system attack from someone attempting to
               break into or compromise a system.

           •   Firewalls. DMDC was requested to identify if boundary
               protections, such as firewalls, that protected the NTS were
               present. A firewall is a boundary protection system that limits
               access between networks to prevent intrusions from outside the
               network. A firewall stops external intrusions, but does not detect
               an attack from inside the network.

DMDC responded in the matrix that NTS was protected by an intrusion
detection system and had boundary protection in place. We confirmed that NTS
was protected by intrusion detection and a firewall at the DMDC-West site.
NTS was a stand-alone system and not connected to a network. As a result,
NTS did not include an intrusion detection system or firewalls at operation
units. However, the DMDC-West intrusion detection system and firewalls
protected the NTS data on the DMDC-West server and NTS Web site.

       Vulnerabilities. ASD(C3I) requested information from DMDC on the
NTS compliance with the information assurance vulnerability alert process and
vulnerability analysis and assessment program procedures.

               Information Assurance Vulnerability Alert. DMDC was
requested to identify if NTS was fully information assurance vulnerability alert
compliant in both acknowledging and adhering to information assurance
vulnerability alerts. An information assurance vulnerability alert is a process
that incorporates identification and evaluation of new vulnerabilities,
disseminates technical responses, and tracks compliance within DoD. Alerts are
generated when a critical vulnerability that poses an immediate threat to DoD
exists. DMDC did not provide a response in the matrix. We confirmed that the
DMDC response was appropriate as of August 1, 2001, because DMDC did not
have an information assurance vulnerability alert plan. However, since that
time, DMDC began developing an information assurance vulnerability alert plan
expected to be finalized by August 2002.

               Vulnerability Analysis and Assessment Program. DMDC was
requested to identify if NTS had a vulnerability analysis and assistance program
assessment. According to the NTS draft SSAA, a vulnerability analysis and
assessment program was a systematic examination of an information system that
determined the adequacy of security measures, identified security deficiencies,
provided data from which to predict the effectiveness of proposed security
measures, and confirmed the adequacy of measures after implementation.
DMDC did not provide a response in the matrix. We confirmed that the
DMDC response was correct as of August 1, 2001. However, since that time,


                                   11
    DMDC proceeded with development of a vulnerability analysis and assessment
    program expected to be completed by August 2002.

           Assessments. DMDC was requested to identify the dates for the most recent:

               •   red and blue team assessment
               •   Joint Staff integrated vulnerability assessment
               •   system requirements reviews
               •   balance survivability assessment
               •   integrated vulnerability assessment

    DMDC provided no response in the matrix. We confirmed that the DMDC
    response was correct as of August 1, 2001, because the reporting elements in
    the section were specific assessments and technical controls that not all systems
    were required to perform, which included NTS.

            System Interfaces. DMDC was requested to identify if NTS required a
    connection approval to connect to a larger backbone network. System interfaces
    are connections to other information systems for the purpose of transmitting or
    receiving data. DMDC did not provide a response in the matrix. We confirmed
    that the DMDC response was appropriate because NTS was a stand-alone
    system that had no active interface with other systems.

Conclusion
    From our analysis of the data reported in the matrix for the NTS, we concluded
    that DMDC was following DITSCAP to certify and accredit NTS. Although
    6 of 32 responses provided in the matrix were technically incorrect because the
    documents were in draft form, we further concluded that DMDC was making
    progress in achieving full information security accreditation for NTS by
    August 2002.




                                        12
Appendix A. Audit Process

Scope
    Work Performed. We verified and validated the NTS data supporting the DoD
    GISR Act Report. To accomplish the audit objective, we:

        •   reviewed Public Law 106-398, Office of Management and Budget
            guidance, and the DoD regulations and guidance related to the GISR Act;

        •   interviewed NTS personnel in DMDC who prepared the GISR Act
            matrix submission;

        •   verified the information reported on the GISR Act data collection matrix.
            Our verification consisted of reviewing the documentation that supported
            the answers DMDC provided on the GISR Act collection matrix as of
            August 1, 2001; and

        •   reviewed certification and accreditation documentation DMDC had
            developed subsequent to August 1, 2001.

    Limitations to Audit Scope. We limited the audit scope to verification and
    validation of information in the NTS GISR Act collection matrix submission and
    certification and accreditation progress made since; we did not perform an
    operational review on NTS site certification and accreditation process. We did
    not perform that review because NTS is an inactive system until an evacuation
    operation or military exercise is performed in a military theater of operations.
    As a practical matter, we did not visit operational sites in Korea, Japan, and
    Europe to observe the physical security of deployed systems not in use.
    Additionally, we did not review the management control program because DoD
    recognized information assurance programs as a material weakness in its
    FY 2000 Statement of Assurance, which was its most recent, signed Statement
    of Assurance.

    High-Risk Area. The General Accounting Office has identified several
    high-risk areas in DoD. This report provides coverage of the Information
    Security high-risk area.

Methodology
    Use of Computer-Processed Data. We did not use computer-processed data to
    perform this audit.

    Audit Type, Dates, and Standards. This program audit was performed from
    January through March 2002 in accordance with generally accepted government
    auditing standards.



                                        13
    Contacts During the Audit. We visited or contacted individuals and
    organizations within DoD. Further details are available on request.

Prior Coverage
    No prior coverage has been conducted on NTS during the last 5 years.




                                      14
Appendix B. Government Information Security
            Reform Act Collection Matrix
            Submission
            We evaluated the GISR Act collection matrix that DMDC submitted as of August 2001
            to ASD(C3I). The following is a summary on the data ASD(C3I) requested, the
            response from DMDC, and our audit analysis of the response for 26 of 32 fields on the
            data collection matrix. We did not include in the matrix below administrative
            information of the four fields that related to system identification and two of the fields
            that were not applicable. A list of acronyms is at the end of this appendix.

                                          Accreditation Information

                                     DMDC
         Data Requested            Response4, 5                             Audit Results

      Accredited? (Date)          Blank              The DMDC goal was to accredit NTS by
                                                     August 2002.

      Interim Authority to        July 27, 2001      Interim authority to operate NTS was granted by the
      Operate? (Date)                                Designated Approving Authority (Director, DMDC)
                                                     and was good for 1 year.

      Accreditation under         Yes                DMDC should have responded “no” because the
      DITSCAP?                                       NTS was not accredited as of August 1, 2001.

                                                     DMDC was following DITSCAP to certify
                                                     and accredit NTS, and planned for a full
                                                     accreditation by August 2002.

      Formal                      Yes                DMDC should have responded “no” because the
      Documentation in                               SSAA was a draft document as of August 1, 2001.
      effect? (SSAA or
      other certification                            DMDC documented the NTS certification and
      and accreditation                              accreditation process with a draft SSAA.
      documentation)
                                                     The draft SSAA will be formalized when the system
                                                     is accredited.




4
    Some questions request a date only. If a date was provided, it can be implied that the answer was yes.
5
    Some questions were answered as Yes, No, or DITSCAP; the answers indicate if the system or network was
    accredited by DITSCAP, inherently, it would have these items in place

                                                          15
                          Assessment Criteria Information

                       DMDC
  Data Requested      Response                         Audit Results
Access controls in   Yes            The NTS used passwords and user accounts.
place?
                                      − Users logged onto laptop computers using a
                                         three-digit code
                                      − Passwords were alphanumeric and included
                                         special characters
                                      − Web users were required to establish an
                                         account and a password

                                    The miniserver verified a laptop computer’s
                                    hardware identification code prior to allowing
                                    access.

Risk Assessment      No             DMDC had not completed the risk assessment and
and Management                      management plan.
Plan completed?
                                    The NTS risk vulnerability assessment was in draft
                                    and scheduled to be completed by August 2002.

System Life-Cycle    Yes            DMDC should have responded “no” because the
Plan exists?                        SSAA was a draft document.

                                    The draft SSAA included a basic system life-cycle
                                    plan.

                                    The life-cycle plan was to be revised as
                                    commercial-off-the-shelf technology was upgraded
                                    and new policies were instituted.

System Security      Yes            DMDC should have responded “no” because the
Plan in place?                      SSAA was a draft document.

                                    The draft SSAA included a security plan as an
                                    appendix.
                                      − Standardized procedures were provided to
                                          users




                                        16
                      Assessment Criteria Information (cont’d)

                          DMCD
  Data Requested         Response                      Audit Results

Proper Personnel     Yes            NTS had separate levels of users, with varying
Security measures in                levels of access and control.
place? (includes                       − System administrators
assignment of duties
and segregation of                     − Evacuation Control Center Officer in Charge
duties)                                − Registrars (operator and user)

                                    Passwords were required to be changed every
                                    6 months.

Physical Security      Yes          NTS equipment was to be secured by the owner
Controls in place?                  when not in use.

                                    When deployed, the systems were to be guarded by
                                    user unit personnel
                                      − Guards were to be posted at registration
                                          center entrances
                                      − Noncombatants were to be physically
                                          searched before entering registration centers

Administrative         Yes          NTS draft SSAA required user unit administrators to
controls in place?                  ensure that all Federal, DoD, and local computer
(includes help desk                 security-related standards were being enforced.
and audit trail)
                                    Even though the draft SSAA required no specific
                                    NTS system level administrative controls, DMDC
                                    staffed a help desk during evacuation exercises.

Contingency Plans      Yes          DMDC should have responded “no” because the
in place?                           contingency plan was a draft document.

                                    The draft contingency plan addressed three
                                    contingencies most likely to occur: power outages,
                                    communications failures, and hardware and software
                                    failures.

                                    DMDC-West was the backup site server for the
                                    U.S. Forces Korea server.
                                      − If Korea servers were down or destroyed, the
                                          information on the miniserver was to be
                                          pushed to a DMDC-West server



                                        17
                      Assessment Criteria Information (cont’d)

                          DMDC
  Data Requested         Response                       Audit Results

Date Contingency      Blank         The draft contingency plan had not been fully
Plans last exercised?               exercised but pieces of the draft plan, such as the
                                    use of satellite communications, were.

Hardware and           Yes          DMDC should have responded “no” because the
System Software                     maintenance plans were draft documents.
Maintenance Plans
in place? (includes                 According to the draft plans, maintenance was to be
version control                     verified and equipment tested prior to training
testing)                            exercises.
                                      − Hardware and system maintenance testing
                                           quarterly
                                      − Hardware was replaced by use of warranties
                                           (commercial off the shelf hardware)

                                    Software was updated annually, or as required based
                                    on user feedback.

Data integrity        Yes           NTS data integrity process was facilitated through
process in place?                   the use of software controls, physical, personnel,
(includes virus scans               and procedural measures
SOP [standing
operating                           NTS used a layered protection concept
procedure], system                   − Multilevel password protection of system
performance                              software and data
monitoring)
                                     − Encryption of data transitions

Security Incident      No           Security Incident Response Plan was added to the
Response Plan in                    draft SSAA since the GISR Act data collection
place?                              matrix submitted.
                                      − An incident reports database, kept at DMDC,
                                           was also added




                                        18
                   Operations and Assessments Interest Items

                         DMDC
  Data Requested        Response                     Audit Results

Protected by IDS       Yes         Because NTS was a stand-alone system, IDS was
[Intrusion Detection               not necessary or used at field-level activities, but
Software]?                         IDS protected the NTS information sent to DMDC
                                   Web site.

                                   Nothing in place to detect hackers.
                                     − Users could make unlimited login attempts
                                         to the laptop computers and Web site.
                                     − No database to hack until a noncombatant
                                         evacuation operation was in progress.

Boundary protection    Yes         The DMDC server was behind a firewall, but NTS
in place? (For                     application was outside a firewall.
example, firewall)

Red and Blue Team      Blank       No red and blue team assessments were
Assessment? (Date)                 performed.

Connection             Blank       NTS was a stand-alone system and had no
Approved?                          interface with other systems.

                                   The DMDC server could only extract data from
                                   NTS when DMDC dialed in
                                     − Data were pulled only when an exercise or
                                        an evacuation was in progress.

IAVA [Information Blank            At the time matrix data was submitted, DMDC did
Assurance                          not know what the IAVA process was.
Vulnerability Alerts]
Compliant?                         Since the data were submitted, DMDC had
                                   partially developed an NTS IAVA plan expected
                                   to be completed by August 2002.

VAAP                   Blank       The VAAP was partially completed and expected
[Vulnerability                     to be completed by August 2002.
Analysis and
Assessment
Program]
Complete? (Date)




                                       19
            Operations and Assessments Interest Items (cont’d)

                      DMDC
 Data Requested      Response                    Audit Results

Joint Staff         Blank       DMDC personnel indicated that they did not
Integrated                      obtain any information on the subject.
Vulnerability
Assessments
Complete? (Date)

System              Blank       According to DMDC, the reviews were not
Requirements                    applicable because NTS was a Component-level
Reviews Complete?               system.
(Date)                             − NTS had only a functional requirements
                                      document

Balance             Blank       DMDC did not obtain any information on this
Survivability                   subject.
Assessment
Complete? (Date)

Integrated          Blank       NTS is a stand-alone system and had not
Vulnerability                   integrated with any other systems.
Assessment
Complete? (Date)




                                   20
Applicable Acronyms

ASD(C3I)          Assistant Secretary of Defense (Command, Control,
                     Communications, and Intelligence)
DITSCAP           Defense Information Technology Security Certification and
                     Accreditation Process
DMDC              Defense Manpower Data Center
GISRA             Government Information Security Reform Act
IAVA              Information Assurance Vulnerability Alerts
IDS               Intrusion Detection Software
NTS               Noncombatant Evacuation Operations Tracking System
SOP               Standing Operating Procedure
SSAA              System Security Authorization Agreement
VAAP              Vulnerability Analysis and Assessment Program




                                          21
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Assistant Secretary of Defense (Command, Control, Communications, and Intelligence)
  Director, Defense-Wide Information Assurance Program

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Other Defense Organizations
Inspector General, Defense Intelligence Agency
Director, Defense Logistics Agency
Director, Defense Finance and Accounting Service
   Chief Information Officer
Director, DoD Human Resources Activity
   Director, Defense Manpower Data Center
Inspector General, Defense Information Systems Agency

Non-Defense Federal Organizations
Office of Management and Budget
General Accounting Office




                                          22
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency, Financial Management, and
  Intergovernmental Relations, Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology and Procurement Policy, Committee on
  Government Reform




                                         23
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing of the Department of Defense prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed to
the report are listed below.

Shelton R. Young
Kimberley A. Caprio
Tilghman A. Schraden
Kathryn L. Palmer
Walter S. Bohinski
Stuart W. Josephs
Jason T. Steinhart
Susan R. Ryan
Daniel L. Messner
Sharon L. Carvalho
